      Department of Homeland Security



            Communication Regarding Participation 

                 in Secure Communities 





OIG-12-66                                       March 2012

                                                             Office of Inspector General

                                                             U.S. Department of Homeland Security
                                                             Washington, DC 20528




                                       March 27, 2012

                                          Preface

The Department of Homeland Security (DHS) Office of Inspector General (OIG) was
established by the Homeland Security Act of 2002 (Public Law 107-296) by amendment
to the Inspector General Act of 1978. This is one of a series of audit, inspection, and
special reports prepared as part of our oversight responsibilities to promote economy,
efficiency, and effectiveness within the Department.

This report addresses how the United States Immigration and Customs Enforcement
communicated the intent and requirements for participation in Secure Communities to
States and local jurisdictions. It is based on interviews with employees and officials of
relevant agencies and institutions, direct observations, and a review of applicable
documents.

The recommendations herein have been developed to the best knowledge available to our
office, and have been discussed in draft with those responsible for implementation. We
trust this report will result in more effective, efficient, and economical operations. We
express our appreciation to all of those who contributed to the preparation of this report.




                                      Charles K. Edwards
                                      Acting Inspector General
Table of Contents/Abbreviations
Executive Summary .............................................................................................................1


Background ..........................................................................................................................2


Results of Review ................................................................................................................4


     Communication and Guidance Regarding Participation in Secure Communities .........4 


     Recommendations........................................................................................................13 


     Management Comments and OIG Analysis ................................................................14 



Appendices
     Appendix A: Purpose, Scope, and Methodology.......................................................17 

     Appendix B: Management Comments to the Draft Report .......................................19 

     Appendix C: Representative Lofgren Request Letter ...............................................24 

     Appendix D: ICE Enforcement and Removal Programs...........................................27 

     Appendix E: Timeline of Events and Communication Related to

                 Secure Communities ............................................................................28 

     Appendix F: Major Contributors to this Report........................................................31 

     Appendix G: Report Distribution ..............................................................................32 



Abbreviations
     DHS                   Department of Homeland Security 

     DOJ                   Department of Justice 

     FBI                   Federal Bureau of Investigation 

     FY                    fiscal year           

     IAFIS                 Integrated Automated Fingerprint Identification System 

     ICE                   United States Immigration and Customs Enforcement

     IDENT                 Automated Biometric Identification System 

     MOA                   memorandum of agreement 

     OIG                   Office of Inspector General 

OIG

Department of Homeland Security
Office of Inspector General

Executive Summary
                 The Department of Homeland Security (DHS), United States
                 Immigration and Customs Enforcement (ICE), is responsible for
                 identifying, detaining, and removing deportable aliens from the
                 United States. In 2008, it implemented Secure Communities to
                 enhance its ability to identify criminal aliens nationwide. The key
                 component of Secure Communities is interoperability, or
                 automated information sharing, between DHS and the Federal
                 Bureau of Investigation within the Department of Justice.

                 In April 2011, Representative Zoe Lofgren (California) requested
                 that the DHS Office of Inspector General (OIG) conduct an
                 investigation to determine whether false and misleading statements
                 may have been made intentionally, while others were made
                 recklessly during the Secure Communities implementation. This
                 report covers one of two OIG reviews initiated in response to this
                 request. The objective of our evaluation was to assess whether
                 ICE clearly communicated to States and local jurisdictions the
                 intent of Secure Communities and their expected participation.

                 We did not find evidence that ICE intentionally misled the public
                 or States and local jurisdictions during implementation of Secure
                 Communities. However, ICE did not clearly communicate to
                 stakeholders the intent of Secure Communities and their expected
                 participation. This lack of clarity was evident in its strategic plan,
                 its outreach efforts, memorandums of agreement signed by States,
                 and its responses to inquiries regarding participation. ICE senior
                 leadership also missed opportunities to provide clear direction to
                 its officials implementing Secure Communities. As a result,
                 3 years after implementation began; Secure Communities
                 continues to face opposition, criticism, and resistance in some
                 locations.

                 We made three recommendations intended to ensure that
                 participation is clearly communicated for Secure Communities and
                 future ICE programs. ICE concurred with the recommendations.




              Communication Regarding Participation in Secure Communities

                                        Page 1
Background
                           United States Immigration and Customs Enforcement (ICE) is
                           responsible for identifying, detaining, and removing deportable
                           aliens from the United States. ICE’s Enforcement and Removal
                           Operations Programs enforce United States immigration laws by
                           identifying and apprehending removable aliens. In addition to
                           Secure Communities, ICE has three programs to identify and
                           apprehend criminal aliens: the Criminal Alien Program, 287(g)
                           Program, and National Fugitive Operations Program. Appendix D
                           contains a description of these programs.

                           In the fiscal year (FY) 2008 Consolidated Appropriations Act,
                           2008 (Public Law 110-161), Congress appropriated $200 million1
                           for ICE to “improve and modernize efforts to identify aliens
                           convicted of a crime, sentenced to imprisonment, and who may be
                           deportable, and remove them from the United States once they are
                           judged deportable.” Within 90 days of enactment, Congress
                           required DHS to submit a plan describing ICE’s intended use of
                           the appropriated funds, including a strategy to identify every
                           incarcerated criminal alien, and a methodology to identify and
                           prioritize for the removal of criminal aliens convicted of violent
                           crimes.

                           In April 2008, ICE submitted to Congress Secure Communities:
                           A Comprehensive Plan to Identify and Remove Criminal Aliens.
                           According to the strategic plan, Secure Communities would
                           initially focus on removing high-risk removable criminal aliens
                           from the United States, including those convicted of major drug
                           offenses and violent offenses such as murder, manslaughter, rape,
                           robbery, child molestation, and kidnapping, as well those who
                           posed a risk to national security. This plan was updated in 2009
                           and 2010 to revise and add some information on Secure
                           Communities.

                           ICE’s strategic plan proposed leveraging the existing information-
                           sharing network between State and local law enforcement agencies
                           and the Federal Bureau of Investigation (FBI). This network was
                           already used to notify the FBI about new arrests and detentions and
                           match identities through fingerprints. Under Secure Communities,
                           ICE planned to automatically share information between the FBI’s



1
    From FY 2008 to FY 2011, Congress appropriated $750 million to ICE for Secure Communities.


                       Communication Regarding Participation in Secure Communities

                                                 Page 2
                           Integrated Automated Fingerprint Identification System (IAFIS)2
                           and the DHS Automated Biometric Identification System (IDENT).3

                           Information-sharing initiatives to integrate IAFIS and IDENT
                           began in 1998 and were later mandated by Congress. The USA
                           PATRIOT Act of 2001 (Public Law 107-56) required federal
                           agencies to create a fully interoperable cross-agency electronic
                           system to share law enforcement and intelligence information to
                           confirm the identity of persons applying for a United States visa.
                           It further required that the system be readily and easily accessible
                           to federal law enforcement and intelligence officers responsible for
                           investigating aliens. The Enhanced Border Security and Visa
                           Entry Reform Act of 2002 (Public Law 107-173), which amended
                           The USA PATRIOT Act of 2001, required that immigration
                           authorities have access to relevant information in federal law
                           enforcement agencies’ databases to determine whether to issue a
                           visa or to determine the admissibility or deportability of an alien.

                           Under Secure Communities, when a local law enforcement agency
                           arrests and books an individual into a local police station or jail,
                           the agency sends the arrestee’s fingerprints and booking information
                           to the FBI to determine whether the arrestee is wanted by other law
                           enforcement agencies or has a criminal history. The FBI, through
                           IAFIS, can automatically share the fingerprints with DHS, which
                           then checks them against IDENT. Interoperability allows ICE, if
                           necessary, to request that the criminal alien be detained rather than
                           released from the custody of the local law enforcement agency.

                           Secure Communities’ use of interoperability first began in Harris
                           County, Texas, in October 2008. According to one ICE official,
                           the agency continued implementation in jurisdictions it determined
                           had the greatest density of criminal aliens. As of December 28,
                           2011, ICE reported interoperability had been implemented in 2,027
                           jurisdictions in 44 States, or 64% of the Nation’s 3,181
                           jurisdictions. ICE anticipates automated information sharing
                           between IAFIS and IDENT throughout the United States by the
                           end of 2013.



2
  IAFIS is a national fingerprint and criminal history system that provides automated fingerprint search
capabilities, latent search capability, electronic image storage, and electronic exchange of fingerprints and
responses. This national system is designed to provide automated criminal history record information and
is run by the FBI within the Department of Justice.
3
  IDENT is the primary DHS-wide system to collect and process biometric and limited biographic
information for DHS’ mission-related functions such as national security, law enforcement, immigration,
and intelligence.


                       Communication Regarding Participation in Secure Communities

                                                    Page 3
                 In April 2011, Representative Zoe Lofgren (California) requested
                 that the OIG conduct an investigation into “any misconduct,
                 including possible violations of criminal law” connected with the
                 implementation of Secure Communities. Specifically, the
                 congresswoman was interested in DHS’ responses to inquiries
                 regarding whether participation in Secure Communities was
                 mandatory or local jurisdictions could opt out. She asserted that
                 some of DHS and ICE personnel’s “false and misleading
                 statements may have been made intentionally, while others were
                 made recklessly, knowing that the statements were ambiguous and
                 likely to create confusion.” Appendix C contains the text of
                 Representative Lofgren’s letter.

                 In response to the congresswoman’s request, OIG initiated two
                 reviews of Secure Communities. The first review is to determine
                 whether Secure Communities was effective in identifying criminal
                 aliens and prioritizing cases for action. The second review is to
                 determine whether ICE clearly communicated to stakeholders the
                 intent of Secure Communities and the expectation of States’ and
                 local jurisdictions’ participation. This report addresses the second
                 part of the request. A separate report will address the effectiveness
                 of Secure Communities.


Results of Review

     Communication and Guidance Regarding Participation
     in Secure Communities
          We did not find evidence that ICE intentionally misled the public or States
          and local jurisdictions during implementation of Secure Communities.
          However, our review revealed that ICE failed to clearly communicate the
          intent and expectation of participation. As required by Congress, ICE’s
          strategic plan included goals, but did not specify whether participation
          would be mandatory and did not communicate statutory or other legal
          support for nationwide implementation. ICE’s outreach presentations to
          stakeholders included conflicting information, and memorandums of
          agreement (MOA) signed by participating States were also inconsistent
          and confusing. ICE’s responses to stakeholders’ inquiries regarding
          participation in Secure Communities were unclear. Finally, ICE senior
          leadership missed opportunities to clarify the expectation of stakeholder
          participation and did not provide support, direction, and guidance to ICE
          officials who were implementing Secure Communities.



              Communication Regarding Participation in Secure Communities

                                        Page 4
   Secure Communities Strategic Plan

   ICE did not include any information related to participation by
   States and local jurisdictions in its strategic plan for Secure
   Communities. Additionally, ICE’s plan did not provide the
   statutory or other legal authority to support its intent to implement
   Secure Communities’ use of interoperability throughout the United
   States. According to ICE officials, the 90-day timeframe set by
   Congress to submit a plan made it difficult to develop a
   comprehensive and detailed strategy.

   Through the Consolidated Appropriations Act, 2008 (Public Law
   110-161), enacted on December 26, 2007, Congress provided ICE
   with $200 million to improve and modernize efforts to identify
   incarcerated criminal aliens. According to the Act, no funds would
   be obligated until Congress received a plan for expenditures
   prepared and submitted by the Secretary for DHS within 90 days.
   The plan was to include the following:

        1) A strategy for ICE to identify every criminal alien, at the
           prison, jail, or correctional institution in which they are
           held;
        2) The process ICE, in conjunction with the Department of
           Justice (DOJ), will use to make every reasonable effort to
           remove, upon their release from custody, all criminal aliens
           judged deportable;
        3) A methodology ICE will use to identify and prioritize for
           removal criminal aliens convicted of violent crimes;
        4) Activities, milestones, and resources for implementing the
           strategy and process described in items (1) and (2); and
        5) Program measurements for progress in implementing the
           strategy and process described in items (1) and (2).

   To meet the congressional requirement, ICE developed Secure
   Communities: A Comprehensive Plan to Identify and Remove
   Criminal Aliens. The April 2008 plan listed strategic goals such as
   identifying and processing all criminal aliens amenable for
   removal while in federal, State, and local custody; enhancing
   current detention strategies to ensure no removable criminal alien
   is released into the community due to a lack of detention space or
   an appropriate alternative to detention; implementing removal
   initiatives that shorten the time that criminal aliens remain in ICE
   custody prior to removal; and maximizing cost-effectiveness and
   long-term success through deterrence and reduced recidivism of
   criminal aliens returning to the United States. The plan focused on


Communication Regarding Participation in Secure Communities

                          Page 5
   the availability of resources and described the proposed approach
   for implementing interoperability.

   The strategic plan submitted to Congress did not address whether
   ICE’s use of interoperability would be mandatory for all States or
   local jurisdictions. Further, it did not include any statutory or other
   legal requirements for participation in Secure Communities at the
   State and local levels. Although the plan described ICE’s intent to
   roll out interoperability nationwide to participating jails and
   prisons, it did not indicate whether participation was required. The
   lack of information addressing these aspects of Secure Communities
   left ICE unready to respond to the growing number of questions
   regarding both intent and participation requirements from States
   and local law enforcement agencies as Secure Communities’ use of
   interoperability was implemented in more jurisdictions.

   Outreach and Communication

   Outreach Presentations

   ICE’s outreach presentations during implementation did not
   identify whether participation in Secure Communities was
   mandatory or voluntary. ICE personnel from the Secure
   Communities program office briefed ICE field offices, State
   identification boards, and local law enforcement agencies. These
   presentations and scripted messages were used to train and inform
   stakeholders about the technical aspects of interoperability.
   According to a member of the program office, ICE had two goals
   for initial briefings: to provide information on Secure Communities
   to State and local law enforcement agencies and to identify
   volunteer State governments or law enforcement agencies to
   participate.

   These presentations focused on the technical aspects of setting up
   interoperability, such as an explanation of how fingerprints would
   be routed and shared; as well as program statistics, including the
   number of people who had been identified because of Secure
   Communities. The presentation material discussed the “need for
   information sharing,” but the mandates behind sharing of
   information were not mentioned. The Secure Communities
   program office also acknowledged that the term “volunteer”
   caused confusion among stakeholders.

   Word choices ICE used in the outreach presentations could lead
   localities to believe they had a choice to participate. For example,


Communication Regarding Participation in Secure Communities

                          Page 6
   charts used in 2009 required law enforcement agencies to read a
   set of standard operating procedures and, if in agreement, send a
   response to ICE affirming that they would adhere to the principles
   in the procedures on use of biometric (fingerprint) identification.
   Because agencies appeared to be able to decide whether to adhere
   to the standard operating procedures principles, they might have
   been led to believe that they could choose to participate.

   The Secure Communities program office explained that, although
   it planned to implement interoperability nationwide by 2013, it
   sought out jurisdictions interested in participating and activated
   those first. Jurisdictions that did not wish to be activated at that
   time would be moved toward the end of the activation list, with the
   intent to have all jurisdictions activated by 2013.

   Memorandums of Agreement

   The use of MOAs generated 	        Under the 287(g) Program, a State or
   questions as to whether            local law enforcement entity may enter
                                      into a partnership with ICE under an
   participation in Secure
                                      MOA and be delegated authority for
   Communities was voluntary          immigration enforcement within their
   or mandatory. According to         jurisdiction.
   current and former ICE
   personnel, the agency chose to Source: ICE
   use MOAs because they had
   been used in past enforcement and removal programs, such as the
   287(g) Program, to establish the responsibilities of ICE and States
   or local jurisdictions. However, the 287(g) Program was a
   voluntary program.
     The 2008 Secure Communities: A                ICE used MOAs to set
     Comprehensive Plan to Identify and
     Remove Criminal Aliens defines three levels   forth its responsibilities
     of crimes:                                    and those of the States in
     Level 1 – Individuals who have been           the automated sharing of
              convicted of major drug and          information on criminal
              violent offenses such as murder,     aliens under Secure
              manslaughter, and rape.              Communities. The
     Level 2 – Individuals who have been           MOAs were based on a
              convicted of minor drug offenses
                                                   template used in prior
              and property offenses such as
              burglary, larceny, fraud, and        programs and, according
              money laundering.                    to ICE officials, were
     Level 3 – Individuals who have been           modified for each State.
              convicted of other offenses.         In general, they included
     Source: ICE                                   ICE’s goals for Secure
                                                   Communities and


Communication Regarding Participation in Secure Communities

                          Page 7
   described the risk-based approach to sharing information. The
   risk-based approach uses a three-level hierarchy of crimes to
   determine how criminal aliens are prioritized for detention and
   removal. The MOAs further noted that States were responsible for
   electronically submitting fingerprints of arrested individuals during
   book-in to the FBI to search through IAFIS. The fingerprints
   would then be automatically crosschecked by DHS in the IDENT
   system.

   In the 42 MOAs we reviewed, we noted changes related to ICE’s
   goals for Secure Communities. For example, the first MOA with
   California, signed in April 2009, stated that the goal was “to
   identify, detain, and remove aliens who have been convicted of and
   incarcerated for a priority Level 1 offense and who are therefore
   amenable to removal.” An MOA with Rhode Island signed in
   January 2011 did not have a section with goals, but instead noted
   that as part of its responsibilities, “ICE will process an alien for
   removal proceedings, and take the alien into custody after
   completion of the alien’s criminal sentence or when the alien is
   released from local custody.”

   All 42 MOAs we reviewed included a modification and
   termination clause that may have added to the confusion regarding
   participation in Secure Communities. The clause stated that
   “either party, upon 30 days’ written notice to the other party, may
   terminate the MOA at any time. A termination notice shall be
   delivered personally or by certified or registered mail and
   termination shall take effect 30 days after receipt of such notice.”
   Because it allows for unilateral termination, a State could interpret
   the language of this clause to mean it could choose not to submit
   fingerprints to DHS and to end its participation in Secure
   Communities.

   In August 2011, ICE recognized that its MOAs had caused
   confusion among local jurisdictions that wanted to opt out.
   Therefore, the ICE Director issued letters to Governors in States
   with Secure Communities MOAs, terminating all existing MOAs.
   In the letter, the Director explained that ICE had determined that
   MOAs were not required to activate or operate Secure
   Communities’ use of interoperability in any jurisdiction. The letter
   further explained that once a State or local law enforcement agency
   voluntarily submitted fingerprints to the federal government, no
   agreement with the State was legally necessary for one part of the
   federal government to share the information with another part. For
   this reason, ICE officials stated that MOAs were simply used to


Communication Regarding Participation in Secure Communities

                          Page 8
   communicate with partners outside DHS and were intended only as
   a vehicle to pass information and were never binding.

   Responses to Inquiries

   In answering inquiries during the implementation of Secure
   Communities in 2009 and 2010, ICE, and in one instance DHS,
   provided unclear and inconsistent responses. Inquiries from
   congressional leaders, States, local governments, nongovernmental
   organizations, and the media focused on whether participation in
   Secure Communities was mandatory or voluntary. They also
   asked whether DHS had misled States and local jurisdictions by
   changing which aspects of Secure Communities were mandatory.
   Internal and external correspondence prepared in response to such
   inquiries showed that ICE had not clearly defined or agreed on
   participation in Secure Communities.

   In general, stakeholders identified four main concerns regarding
   implementation of Secure Communities. They indicated that it
   was not focused on serious criminals. Further, they explained it
   could strain community-police relations, inadvertently lead to
   racial profiling, and result in wrongful detention of those not
   convicted of a criminal offense.

   Internal and External Correspondence

   Our review of internal and external correspondence showed that
   ICE had not clearly defined or agreed on whether the participation
   in Secure Communities was mandatory or voluntary. We reviewed
   correspondence that included definitions of participation, such as
   letters to stakeholders, as well as ICE interoffice emails,
   presentations, talking points, and public affairs guidance. These
   documents revealed that, from August 2009 through August 2010,
   the definition of participation changed five times. Two other
   definitions were included in a letter from the Secretary in
   September 2010 and in analysis completed by ICE’s Office of the
   Principal Legal Advisor in October 2010. Appendix E presents a
   timeline that includes a summary of these changes.

   An August 2009 Frequently Asked Questions document explained
   that ICE was not requiring any entity to participate in information-
   sharing technology at the State or local levels. The document
   further noted that ICE would enter into an agreement with each




Communication Regarding Participation in Secure Communities

                          Page 9
                           State identification bureau4 to oversee the sharing of information
                           between ICE and the State. Each agreement would include a
                           clause allowing either side to suspend or terminate the use of
                           information-sharing technology with 30 days’ written notice.

                           In March 2010, ICE public affairs guidance stated that all
                           jurisdictions were expected to be part of Secure Communities by
                           2013 to comply with a congressional mandate. However, ICE did
                           not specify which mandate. Further, the guidance noted that if a
                           jurisdiction did not want fingerprints checked against IDENT, it
                           would have to coordinate with the State to ensure that fingerprints
                           were not submitted to DOJ.

                           An April 2010 Frequently Asked Questions document again stated
                           that all jurisdictions were expected to be part of Secure
                           Communities by 2013 to comply with a congressional mandate. A
                           jurisdiction could choose not to receive immigration-related
                           information on a fingerprinted individual, but that information
                           would still be provided to ICE.

                           In July 2010, an email from ICE to a congressman’s office
                           explained that jurisdictions had three options for participating in
                           Secure Communities. The Secure Communities program office
                           defined these options as follows:

                                    Full participation – Law enforcement agencies would send
                                    fingerprints of every individual taken into custody to the
                                    FBI, which would forward them to DHS. DHS would then
                                    send ICE and the law enforcement agency results of the
                                    immigration check.

                                    Limited participation – Law enforcement agencies would
                                    send fingerprints of every individual taken into custody to
                                    the FBI, which would forward them to DHS, but the law
                                    enforcement agency could choose not to receive the results
                                    of the DHS immigration check.

                                    Postpone participation until 2013 – Law enforcement
                                    agencies would send fingerprints to the FBI, but the
                                    fingerprints would not be shared with DHS until
                                    nationwide implementation in 2013.



4
 Each State has a State identification bureau that is the repository of State biometric and criminal history
data and acts as the intermediary between local law enforcement agencies and IAFIS.


                       Communication Regarding Participation in Secure Communities

                                                   Page 10
   In August 2010, the program office again attempted to clarify
   participation in Secure Communities by releasing Setting the
   Record Straight. This document contained information on Secure
   Communities, including an explanation as to how jurisdictions
   could choose not to participate. It explained that if a local
   jurisdiction did not wish to activate information sharing on its
   scheduled date, it would have to formally notify the State
   identification bureau and ICE in writing. ICE would then discuss
   the jurisdiction’s concerns and reach a resolution, which could
   include adjusting the activation date or removing the jurisdiction
   from the implementation plan. Although the document was
   intended to clarify participation in Secure Communities, it was
   confusing since it implied that local jurisdictions could choose not
   to participate.

   Senior Leadership Direction, Support, and Guidance

   Although it had opportunities to do so, ICE senior leadership did
   not provide direction, support, or guidance to ICE officials to
   address concerns about Secure Communities, especially whether
   participation was mandatory. This lack of direction and guidance
   from senior leadership led ICE, and in one instance DHS, to
   provide unclear and inconsistent information to stakeholders.

   The 2009 Secure Communities: A Comprehensive Plan to Identify
   and Remove Criminal Aliens stated that ICE intended to form an
   Executive Steering Committee, consisting of senior ICE leaders, to
   discuss, review, and approve Secure Communities initiatives and
   performance. However, the Executive Steering Committee was
   dissolved in 2010, terminating its oversight mission. An ICE
   program official explained that the new ICE Director chose not to
   use this method of oversight.

   In November 2009, the Secure Communities program office
   drafted a memorandum for signature by the ICE Director. Its
   intent was to reach consensus in ICE on whether participation in
   Secure Communities was voluntary. The memorandum,
   “Clarification of Voluntary Interoperability,” acknowledged that
   Secure Communities had stated in various forums, including
   Congress, that State and local participation in IAFIS/IDENT
   information sharing was voluntary. Further, it noted that by
   electing not to participate, jurisdictions could infer that
   IAFIS/IDENT interoperability would not be activated.
   Jurisdictions might then assume that fingerprints sent by
   nonparticipants to the FBI would not be submitted to DHS’ IDENT


Communication Regarding Participation in Secure Communities

                         Page 11
   system. The memo stated that the FBI had indicated to the Secure
   Communities program office that interoperability would be fully in
   place by 2013. For these reasons, the program office sought to
   clarify the definition of voluntary participation by States and local
   jurisdictions.

   This memorandum was never provided to the ICE Director for
   review and approval. According to senior ICE officials, they did
   not fully understand its intent or what the program office was
   trying to clarify, but they did not contact the program office for
   clarification. One senior official explained that since ICE senior
   leadership did not fully understand the intent of the memo, they did
   not submit it to the Director for review. Instead, the memorandum
   was marked for information only and was never signed by the ICE
   Director. Consequently, ICE senior leadership lost an opportunity
   to provide clear direction to the Secure Communities program
   office.

   In September 2010, DHS attempted to address participation in
   Secure Communities. A member of Congress wrote to the
   Secretary of DHS, requesting a clear explanation of how local law
   enforcement agencies might opt out of Secure Communities by
   having fingerprints checked against criminal, but not immigration,
   databases. The Secretary responded in writing that a local law
   enforcement agency that did not wish to participate in Secure
   Communities implementation had to notify the Secure Communities
   program office and the State. The letter also explained that if a law
   enforcement agency chose not to be activated during Secure
   Communities implementation, the agency would be responsible for
   notifying its local ICE field office of suspected criminal aliens.
   This response conflicted with other ICE statements regarding
   participation.

   In September 2010, the ICE Director and senior officials
   recognized that the agency had not prepared a thorough analysis to
   support the agency’s position that participation in Secure
   Communities would be mandatory by 2013. They requested that
   ICE’s Office of the Principal Legal Advisor prepare an analysis of
   opting out. The draft analysis, completed in October 2010,
   provided arguments supporting a position that participation in
   Secure Communities would be mandatory by 2013.

   However, ICE officials acknowledged that, to date, this
   information has not been incorporated into recent communications
   or a single comprehensive Secure Communities document,


Communication Regarding Participation in Secure Communities

                         Page 12
     including the August 2011 letter from the ICE Director canceling
     the MOAs.

     Conclusion

     We did not find evidence that ICE intentionally misled the public
     during Secure Communities implementation. However, confusion
     within the agency regarding intent and participation led ICE to
     misinform and confuse stakeholders and the media. Initial
     confusion may have stemmed from the short timeframe to
     implement Secure Communities’ use of interoperability, coupled
     with the assumption that prior congressional mandates for
     interoperability supported the current effort. However, once
     questions and concerns arose, senior leadership within ICE and in
     one instance the Department continued to exacerbate the problem
     by providing unclear and conflicting responses to inquiries and
     concerns. As a result, Secure Communities continues to face
     opposition, criticism, and resistance in some locations.


Recommendations
     We recommend the Director, United States Immigration and
     Customs Enforcement:

     Recommendation #1: Immediately compose and release
     thorough guidance and criteria that specifically outline the intent
     and expectations of Secure Communities. The guidance should
     specify which aspects of Secure Communities are optional for
     States and local law enforcement agencies.

     Recommendation #2: Coordinate with the Department of
     Homeland Security to establish protocols to ensure that the
     Department and United States Immigration and Customs
     Enforcement senior leadership provide the necessary direction,
     guidance, oversight, and support for the intent and implementation
     of new immigration enforcement programs.

     Recommendation #3: Generate a lessons learned document and
     plan for the Department of Homeland Security to use when guiding
     future immigration and enforcement program development and
     implementation.




  Communication Regarding Participation in Secure Communities

                           Page 13
Management Comments and OIG Analysis
     ICE concurred with the recommendations. A copy of the
     comments in their entirety is in appendix B. We summarize and
     address these comments below.

     Response to Recommendation #1

     ICE Concurred: ICE explained that the agency has taken steps to
     clarify confusion surrounding whether an MOA is required for
     Secure Communities to operate in a State or local jurisdiction. In
     August 2011, ICE sent letters to the States with existing MOAs to
     explain that MOAs were not necessary for one part of the federal
     government to share fingerprint data with another.

     As Secure Communities activations continue, ICE is providing
     briefings to law enforcement agencies in States that are capable of
     receiving information about identifications resulting from
     fingerprints processed through DHS’ databases. However, in
     States that are not capable of receiving this information, briefings
     are conducted on an as-needed basis. Additionally, ICE continues
     to provide briefings upon request in States that have already been
     activated.

     ICE also explained that the agency updated its website page to
     increase information sharing. Updates include information on how
     Secure Communities works, frequently asked questions, new ICE
     policies, the Secure Communities complaint protocol, and training
     materials for State and local law enforcement agencies. ICE
     announced the creation of a Public Advocate. This position will
     serve as the agency’s point of contact for individuals in
     immigration proceedings, non-governmental organizations, and
     advocacy groups that have concerns, questions, recommendations,
     or other issues they would like to raise.

     OIG Analysis: ICE’s response to the recommendation included
     efforts to help clarify the intent and expectations of Secure
     Communities. However, during fieldwork, the ICE Director
     explained that the agency was composing a single document that
     outlines participation requirements for Secure Communities, such
     as statutory or other legal support for nationwide implementation.
     The agency did not fully address the intent of the recommendation.
     This recommendation is open and unresolved until ICE provides a



  Communication Regarding Participation in Secure Communities

                           Page 14
   formal, publicly available document that outlines participation
   requirements for Secure Communities.

   Response to Recommendation #2

   ICE Concurred: In June 2011, ICE issued two prosecutorial
   discretion memorandums to provide direction and guidance on
   Secure Communities and ICE’s Civil Immigration Enforcement
   Priorities. The first memorandum, “Exercising Prosecutorial
   Discretion Consistent with the Civil Immigration Enforcement
   Priorities of the Agency for the Apprehension, Detention, and
   Removal of Aliens,” provided guidance to ICE law enforcement
   personnel and attorneys on their authority to exercise discretion
   when appropriate.

   The second memorandum, “Prosecutorial Discretion: Certain
   Victims, Witnesses, and Plaintiffs,” directed the exercise of
   prosecutorial discretion to ensure that victims and witnesses of
   crimes are properly protected. In addition to issuing the
   prosecutorial discretion memorandums, ICE launched a
   comprehensive training program on the appropriate use of both
   memorandums. As of January 2012, all Enforcement and Removal
   Operations management and ICE attorneys nationwide have
   completed scenario-based prosecutorial discretion training.

   OIG Analysis: ICE’s response to this recommendation did not
   fully address the issue of establishing protocols to ensure that DHS
   and ICE senior leadership provide the necessary direction,
   guidance, oversight, and support for the intent and implementation
   of new immigration enforcement programs. The two
   memorandums that ICE cited provide guidance to ICE field
   personnel on applying existing immigration programs. They do
   not address how the Department and agency can improve internal
   communication to minimize the issuance of unclear or inconsistent
   information to stakeholders.

   This recommendation will remain unresolved until ICE provides
   its plans for developing protocols outlining procedures, roles, and
   responsibilities and the names of the responsible officials. The
   recommendation will remain open until ICE provides a copy of the
   final approved protocols.




Communication Regarding Participation in Secure Communities

                         Page 15
   Response to Recommendation #3

   ICE Concurred: The ICE Office of Policy will work with agency
   program offices and DHS to develop a lessons learned document to
   use to plan future enforcement programs, priorities, and
   implementation.

   OIG Analysis: This recommendation is unresolved until ICE
   provides milestone dates for the completion of the lessons learned
   document and names of the responsible officials. The
   recommendation will remain open until ICE provides a copy of the
   final lessons learned document.




Communication Regarding Participation in Secure Communities

                         Page 16
Appendix A
Purpose, Scope, and Methodology

                   Our objective was to determine whether ICE clearly communicated
                   the intent of Secure Communities and the expectation of
                   stakeholder participation to States and local jurisdictions.

                   We interviewed officials from various ICE headquarters offices,
                   including the Office of the Director; Office of the Principal Legal
                   Advisor; Enforcement and Removal Operations; Office of Public
                   Affairs; Office of State, Local, and Tribal Coordination; and Office
                   of Congressional Relations. We also interviewed field office
                   officials in Phoenix, Arizona; San Francisco, California; and
                   Washington, DC.

                   We reviewed prior audit and evaluation reports, relevant laws,
                   regulations, strategic plans, standard operating procedures,
                   policies, and ICE’s organizational charts. We reviewed
                   memorandums of agreement, public release statements, media
                   reports, outreach documents, legal analyses, talking points, opt-out
                   requests, and other documents released to the public through the
                   Freedom of Information Act.

                   We also reviewed ICE interoffice communications, which
                   consisted of emails, presentations, talking points, and public affairs
                   guidance. The correspondence included discussions within ICE
                   and outside of the agency to stakeholders dating from February
                   2009 through June 2011.




                Communication Regarding Participation in Secure Communities

                                         Page 17
Appendix A
Purpose, Scope, and Methodology

                          We selected nine locations to visit, including three State
                          identification bureaus and seven local law enforcement agencies.5
                          We chose to visit States and local law enforcement agencies that
                          are participating through Secure Communities, as well as those that
                          have requested to opt out of Secure Communities. We visited the
                          following:

                                 Arizona              Maricopa County Sheriff’s Office
                                                      Tucson Police Department
                               California             California Department of Justice
                                                      San Francisco Sheriff’s Department
                                                      San Mateo County Sheriff’s Office
                                                      Santa Clara County Sheriff’s Office
                               District of            Metropolitan Police Department of the
                               Columbia               District of Columbia
                                Virginia              Arlington County Police Department
                                                      Virginia State Police

                          We conducted this review under the authority of the Inspector
                          General Act of 1978, as amended, and according to the Quality
                          Standards for Inspections, January 2011, issued by the Council of
                          the Inspectors General on Integrity and Efficiency.




5
 The Metropolitan Police Department of the District of Columbia is both the State identification bureau
and the local law enforcement agency.


                      Communication Regarding Participation in Secure Communities

                                                 Page 18
Appendix B
Management Comments to the Draft Report




                                                                         OffiC(' OJllrt' Chhi Fillflllcial Officer

                                                                         U.S. Departmenl of Ilomciand
                                                                         Srcllril~'
                                                                         500 12 tb Street. SW
                                                                         W;lshinglon. DC 20536


                                                                         u.s. Immigration
                                                                         and Customs
                                                                         Enforcement



                                            February 23, 2012



          MEMORANDUM FOR:              Charles K. Edwards
                                       Acting Inspector General


          FROM:
                                    ~~
                                ~ Radha C. Sekar
                                U      Chief Financial Officer

          SUBJECT:                     Communication Regarding Participation in Secure
                                       Comlllunities -- DIG Project No. 11-141-AUD-ICE


          U.S. Immigration and Customs Enforcemenl (ICE) is pleased 10 provide a response 10 Ihe
          draft report for this subject audit. ICE concurs wilh the three recommcndations and our
          COlllments are al1ached.
          If you have any questions, please contact Michael Moy, DIG Portfolio Manager, at 202-
          732-6263, or via email at MichacI.Moy@dhs.gov.




          Allachmcnts




                  Communication Regarding Participation in Secure Communities


                                                 Page 19

Appendix B
Management Comments to the Draft Report




          Recommendation 1: Immediately compose a"d release thorough guidance and criteria
          that specifically outlille the ill tent and expectations 0/Secure Commullities. The
          guidance should specify which aspects 0/Secure Communities are optional/or states
          and local law en/orcemellt agencies.

          Response: U.S. Immigration and Customs Enforcement (ICE) concurs with this
          recommendation. As stated in the draft report, ICE has taken steps to clarify any
          confusion surrounding whether a memorandum of agreement (MOA) is required for
          Secure Communities to operate in a state or local jurisdiction. Because ICE determined
          that an MOA is not required, ICE terminated all existing MOAs in 2011. This
          determination is based on a 2002 congressional mandate for federal law enforcement
          agencies to share information that is relevant to determine the admissibility or
          deportability of an alien. See 8 U.S.C. § 1722(a)(2).

          In August 20II, ICE sent letters to the states that had existing Secure Communities
          MOAs to explain the determination that MOAs were not necessary to operate the
          program. The letter informed slates that "ICE has determined that an MOA is not
          required to activate or operate Secure Communities for any jurisdictions. Once a slate or
          local law enforcement agency voluntarily submits fingerprint data to the federal
          government, no agreement with the state is legally necessary for one part of the federal
          government to share it with another part."

          The information-sharing partnership between the U.S. Department of Homeland Security
          (DHS) and the Federal Bureau of Investigation (FBI), which serves as the cornerstone of
          Secure Communities, is mandated by federal law. As a result, Secure Communities is
          mandatory in that, once the information-sharing capability is activated for a jurisdiction,
          the fingerprints that slate and local law enforcement voluntarily submit to the FBI for
          criminal justice purposes to be checked against the Department of Justice's (DOJ)
          biometric identification system for criminal history records are automatically sent to
          DHS' biometric system to check against its immigration and law enforcement records.
          The United States government has determined that a jurisdiction cannot choose to have
          the fingerprints it submits to the federal government processed only for criminal history
          checks. Further, jurisdictions cannot demand that the identifications that result from
          DHS' processing of the fingerprints not be shared with local ICE field offices in that
          jurisdiction. It is ICE, and not the slate or local law enforcement agency, that determines
          what immigration enforcement action, if any, is appropriate. As Secure Communities
          activations continue, ICE is providing briefings to law enforcement agencies in states that
          are capable ofreceiving information about identifications that result from processing
          fingerprints through DHS's databases. However, in states that are not capable of
          receiving this information, briefings are conducted on an as needed basis. Additionally,
          ICE continues to provide briefings upon request in states that have already been
          activated.

          ICE has further clarified the intent and expectations of Secure Communities through
          expanded outreach efforts with key stakeholders at the national, state, and local levels,
          involving both government offices and community groups. During 2011, ICE conducted




                  Communication Regarding Participation in Secure Communities


                                                  Page 20

Appendix B
Management Comments to the Draft Report




          more than 730 in-person or telephonic meetings and presentations regarding Secure
          Communities with various law enforcement agencies, the general public, congressional
          representatives, immigration advocates, and foreign embassy representatives. ICE
          officials also attended several official government meetings and public town halls. These
          meetings served as an opportunity to clarify the goals and objectives of Secure
          Communities and explain the responsibilities ofall of the participants involved. In
          addition, in October 2011, Secretary Napolitano and Director Morton spoke with state
          and local law enforcement agencies at the International Association of Chiefs of Police
          (IACP) Conference about ICE's enforcement priorities and efforts, including issues
          related to Secure Communities.

          ICE updated the ICE.gov Secure Communities webpage
          (http://www.ice.gov/secure communities!) to provide additional transparency and
          increased information sharing. These updates include information on how Secure
          Communities works, frequently asked questions, new ICE policies, the Secure
          Communities complaint protocol, and training materials for state and local law
          enforcement agencies. ICE and the DHS Office ofCivil Rights and Civil Liberties
          partnered to develop the training and awareness briefings primarily for use by front line
          state and local law enforcement agency personnel during daily muster or roll call
          briefings.

          Furthermore, in February 2012, ICE announced the creation ofthe Public Advocate. This
          new senior agency position will serve as a point ofcontact for individuals, including
          those in immigration proceedings, non-governmental organizations and other community
          and advocacy groups, who have concerns, questions, recommendations or other issues
          they would like to raise. This individual will build constructive relationships with the
          community and help resolve problems or concerns.

           ICE requests this recommendation be considered Resolved and Closed, based on actions
           already taken to clarify the intent of Secure Communities.

          Recommendation 2: Coordillate witl' the Departmellt ofHomeland Security to
          establish protocols to ensure the Department and United States Immigration alld
          Customs Enforcement sellior leadership provide the necessary direction, guidallce,
          oversight, and supportfor the intellt and implemelltation oflIeItJ immigration
          ellforcemellt programs.

          Response: ICE concurs with this recommendation. In fiscal year 2011, DHS and ICE
          senior leadership made significant efforts to provide the necessary direction and guidance
          on Secure Communities and ICE's Civil Immigration Enforcement Priorities. On June
          17,2011, Director Morton issued two memoranda; the first, titled "Exercising
          Prosecutorial Discretion Consistent with the Civil Immigration Enforcement Priorities of
          the Agency for the Apprehension, Detention, and Removal of Aliens" (hereafter "June
          17,2011 Prosecutorial Discretion memorandum"), provides guidance to ICE law
          enforcement personnel and attorneys regarding their authority to exercise discretion when
          appropriate. This authority is designed to help ICE better focus its enforcement activities

                                                      2




                  Communication Regarding Participation in Secure Communities


                                                  Page 21

Appendix B
Management Comments to the Draft Report




          on meeting the priorities ofthe agency and to use limited resources to target criminals
          and those that put public safety at risk, as well as repeat immigration law violators, recent
          border crossers, and immigration fugitives. The second memorandum, titled
          "Prosecutorial Discretion: Certain Victims, Witnesses, and Plaintiffs," also directs the
          exercise of prosecutorial discretion to ensure that victims of and witnesses to crimes are
          properly protected. These memoranda are not only applicable to current ICE enforcement
          programs, but serve as the parameters for any new immigration enforcement programs.

          On September 29,2011 and October 24,2011, Secretary Napolitano met with
          supervisory ICE Enforcement and Removal Operations (ERO) officers and ICE attorneys
          to discuss the agency's enforcement priorities and the importance of these initiatives.
          During the past several months, ICE Director Morton, along with other members of
          ICE's senior leadership team, traveled around the country to personally instruct ERO
          officers and ICE attorneys on the appropriate use of prosecutorial discretion.

          In addition, on November 17, 2011, ICE launched a comprehensive training program on
          the appropriate use ofboth prosecutorial discretion memoranda. This program consists of
          scenario-based training that emphasizes how the prosecutorial discretion memoranda
          should be utilized in order to focus immigration enforcement resources on ICE priorities.
          This comprehensive training program was built upon training that had already occurred
          after the issuance of the June 17,2011 Prosecutorial Discretion memorandum. As of
          January 2012, all ERO management and ICE attorneys nationwide have completed
          scenario-based prosecutorial discretion training.

          Furthermore, ICE senior leadership are providing oversight and support to ICE attorneys
          nationwide that are reviewing all incoming cases in immigration court. The review is
          based on the prosecutorial discretion memorandum, and guided by a set of more focused
          criteria. This review will help reduce inefficiencies that delay the removal of criminal
          aliens and other priority cases by preventing new low priority cases from clogging the
          immigration court dockets.

          DHS and ICE will utilize similar outreach and training efforts for future immigration
          enforcement programs, thus ensuring DHS and ICE senior leadership provide the
          necessary direction, guidance, oversight, and support for implementation of new
          immigration enforcement programs.

          ICE requests this recommendation be considered Resolved and Closed, based on the
          actions already taken to provide direction and guidance on ICE's immigration
          enforcement programs.




                                                       3




                  Communication Regarding Participation in Secure Communities


                                                   Page 22

Appendix B
Management Comments to the Draft Report




          Recommendatioll 3: Gellerate a lessolls learned document and plall for Department of
          HOllleland Security to use when guiding future immigration and enforcement program
          developmelll and implementatioll.

          Response: ICE concurs with this recommendation. The ICE Office of Policy will work
          with the program offices and DHS to develop a lessons learned document that will be
          used to plan for future enforcement programs, priorities, and implementation.

          ICE requests this recommendation be considered Resolved and Open pending completion
          of the lessons learned document. ICE estimates that this document will be completed in
          fiscal year 2012.




                                                    4




                 Communication Regarding Participation in Secure Communities


                                                Page 23

Appendix C
Representative Lofgren Request Letter


    COMMrrT£E ON THE JUOICIARY                                                                       635 NOtmt FIRST STA££T
     • RANJ(JNG MEMlJEJ' - SUICOMMmtE ON                                                             Sum B
       IMMIORATlON, PoLICY AND ENFORCEMENT                                                           SAN JOSE, CA 95112
     • SUBCOMMITrEE ON INTULECTUAL PROPERTY,
                                                                                                     (408)271-8700
       CoMPETTTION, AND THE INTERNET
                                                                                                     1401l0NGW0RTH HouSE Oma BUILDING

    COMMITTEE ON HOUSE AOMINISTRATION
     • 1fANI(JNG MEMBER - SUIlCOMMI1TEE ON
                                                 (tCongre55 of tbt mntttb ~tatt5                     WASHINGTON, DC 20515
                                                                                                     12021225-3072

       0v<M0aHT                                       1!)ous£ of l\epresentatib£s                    WWtN HOUS.E QQYL\OfGREN

    COMMITTEE ON SCIENCE. SPACE. ANO
    TECHNOLOGY                                           ~a5I.Jington.      1'3([ 20515
      • SUBCOMMITTEE ON ENERGY AND ENVIRONMENT
                                                                                                     Co-CHAIR.   CoNGRESSIONAL   CAucus ON
      • SUBCOMMITrEE ON INVf;STlGATlONS AND
                                                                                                     VIETNAM
        OvERSIGHT                                            ZOE LOFGREN
                                                                                                     c;o.CHAJIf. DlvERsnv & INNOVA'TlON CAucus
                                                          16TH DISTRICT, CALIFORNIA




                                                     April 28, 2011



                    Charles K. Edwards                                 Timothy Moynihan
                    Acting Inspector General                           Assistant Director
                    U.S. Department of Homeland Security               Office of Professional Responsibility
                    245 Murray Drive, SW, Bldg. 410                    lnunigration and Customs Enforcement
                    Washington, DC 20528                               P.O. Box 144755
                                                                       Pennsylvania Ave. NW
                                                                       Washington, DC 20044


                    Dear Inspector General Edwards and Assistant Director Moynihan:

                            In recent months, it appears that Departmcnt of Homeland Security (DHS) and
                    lnunigration and Customs Enforcement (ICE) personnel and contract staff may have
                    made false and misleading statements to local governments, the public, and Members of
                    Congress in connection with the deployment of the Secure Communities program. ill
                    response to a Freedom of Information Act request, ICE and the Federal Bureau of
                    Investigations (FBI) have released many thousands of pages of documents, including
                    internal e-mails and memoranda. Having conducted with my legal staffan initial review
                    of the documents that have been made public, I believe that some of these false and
                    misleading statements may have been made intentionally, while others were made
                    recklessly, knowing that the statements were ambiguous and likely to create confusion.
                    now write to request that your offices conduct thorough investigations into any
                    misconduct, including possible violations of crirninallaw, revealed by the documents.
                    As the identities of many persons were redacted from publicly available documents and
                    some documents were withheld entirely or have yet to be made public, it is important that
                    you review the conduct of all relevant persons in order to determine who bears
                     responsibility for any misconduct that you find.

                            The statements in question deal primarily with the issue of whether Secure
                    Communities is a mandatory program that all states and localities must participate in or
                    whether localities may be permitted to "opt out" of the program out of a concern that
                    participation will present a barrier to community policing efforts and will make it more
                    difficult to implement a law enforcement strategy that meets public safety needs. Under
                    the Secure Communities program, fingerprints collected by local law enforcement




                                                              PRINTED ClH RECYCl.ED PAPER




                                 Communication Regarding Participation in Secure Communities


                                                                 Page 24

Appendix C
Representative Lofgren Request Letter




          agencies upon booking that are routinely submitted to State Identification Bureaus (SIBs)
          in order to be checked by the FBI Criminal Justice Information Services Division (CJIS)
          Integrated Automated Fingerprint Identification System (IAFIS) are now checked against
          immigration databases and provided to ICE for purposes of immigration enforcement.
          Some localities have asked that fingerprints submitted to their SIBs be checked against
          criminal, but not immigration, databases, and Members of Congress and their offices
          have sent letters, asked questions for the record, and held briefings on that topic.

                  According to a recent statement by a DRS official, "Secure Communities is not
          voluntary and never has been." (Lee Romney, Congresswoman Calls for Investigation of
          Enforcement Program That Screens for Illegal Immigrants in Jails, Los ANGELES TIMES,
          April 22, 2011). Unfortunately, this statement cannot be reconciled with many of the
          public and private statements made by DRS and ICE personnel over the past two years.
          For instance, more than two years ago, ICE responded to a written question for the record
          posed by then-Chairman David Price that "ICE does not require any entity to participate
          in the information sharing technology at the state or local level." I Similarly, in an August
          26,2009, e-mail exchange specifically on the topic of whether Secure Communities is
          mandatory or voluntary, one ICE official wrote that Secure Communities "will remain
          voluntary at both the State and Local level. ... Until such time as localities begin to push
          back on participation, we will continue with this current line ofthinking.,,2 A
          memorandum prepared in 2009 for ICE Director John Morton on the topic of
          voluntariness acknowledges that "[t]o date, Secure Communities has stated in various
          arenas, including Congress, that state and local participation in !DENT/IAFIS
          Interoperability is voluntary.,,3

                   In order to clarify significant confusion about the program, I wrote to DRS
          Secretary Janet Napolitano on July 27, 20 I0, specifically asking "how local law
          enforcement agencies may opt out of Secure Communities by having the fingerprints they
          collect and submit to the SIBs checked against criminal, but not immigration, databases."
          In her response, Secretary Napolitano described what steps must be taken by a locality
          "that does not wish to participate in the Secure Communities deployment plan" and
          explained that "[i]f a local law enforcement agency chooses not to be activated in the
          Secure Communities deployment plan, it will be the responsibility of that agency to
          notify its local ICE field office of suspected criminal aliens." This response clearly
          indicated to me that localities were permitted to opt out of the program in the manner
          described in my original letter. And according to one recently released e-mail by an
          FBI/CnS employee, my conclusion should have come as a surprise to no one;
          commenting on an earlier, but nearly identical, draft of the Secretary's response to my
          letter, the FBI employee wrote: "reading the response alone would lead one to believe
          that a site can elect to never participate should they wish (at least it reads that way on my
          small [Blackberry] screen)."

                  One issue at the heart of any deceptive statements by DRS or ICE personnel
           appears to be ICE's decision to adopt a counterintuitive and misleading definition of the
           term "opt out" to refer only to the ability of localities to avoid receiving the results of
           immigration checks conducted on fingerprints submitted to the SIBs, but not the use of


                                                        2




                    Communication Regarding Participation in Secure Communities


                                                      Page 25

Appendix C
Representative Lofgren Request Letter




           fingerprints to check immigration databases. According to one e-mail exchange, this
           decision was approved by Wlllamed ICE front office personnel orally, rather than in
           writing, in order to give officials "plausible deniability."s

                   It is unacceptable for government officials to essentially lie to local governments,
           Members of Congress, and the public. Unfortunately, my review of the e-mails that have
           been made public suggests that some government personnel have been less than
           completely honest about this program over the last two years. It is critically important
           that you thoroughly investigate this matter and that any misconduct result in real
           consequences. I am available if you have any questions or would like to discuss this
           matter in greater detail. Thank you for your prompt attention to this matter.


                                           Sincerely,




           I   ICE FOJA 10-2674.001832.
           2   ICE FOIA 10-2674.001831.
           3   ICE FOIA 10-2674.0007299.
           • FBI-SC-1719.
           'ICE FOIA 10-2674.0007174.




                                                          3




                      Communication Regarding Participation in Secure Communities


                                                        Page 26

Appendix D
ICE Enforcement and Removal Programs

                  ICE’s Enforcement and Removal Operations Programs enforce
                  United States immigration laws by identifying and apprehending
                  removable aliens. In addition to Secure Communities, ICE has
                  three programs to identify criminal aliens.

                    The Criminal Alien Program

                    The Criminal Alien Program identifies, processes, and removes
                    criminal aliens incarcerated in federal, State, and local prisons
                    and jails throughout the United States, preventing their release
                    into the general public by securing a final order of removal prior
                    to the termination of their sentences.

                    Delegation of Immigration Authority Section 287(g)
                    Immigration and Nationality Act (The 287(g) Program)

                    The 287(g) Program allows States and local law enforcement
                    agencies to enter into partnerships with ICE through bilateral
                    memorandums of agreement under which they are delegated
                    authority for immigration enforcement in their jurisdictions.

                    National Fugitive Operations Program

                    The National Fugitive Operations Program identifies, locates, and
                    arrests fugitive aliens who have been previously removed from
                    the United States; removable aliens who have been convicted of
                    crimes; and aliens who enter the United States illegally or
                    otherwise defy the integrity of United States immigration laws
                    and border control efforts.




               Communication Regarding Participation in Secure Communities


                                         Page 27

Appendix E
Timeline of Events and Communication Related to Secure Communities

  October
             The USA PATRIOT Act of 2001 requires federal agencies to create a cross-agency
   2001
             electronic system to share law enforcement and intelligence information necessary
             to confirm the identities of persons applying for a United States visa and to be
             accessible to all officers responsible for investigating aliens.

    May
             The Enhanced Border Security and Visa Entry Reform Act of 2002 requires, upon
    2002
             implementation of the plan required by 8 USC §1721(c), that the President develop
             and implement an interoperable electronic data system that provides current and
             immediate access to information in databases of federal law enforcement agencies
             and the intelligence community that is relevant to determine the admissibility or
             removability of an alien.

  December
             Congress appropriates $200 million to ICE to improve and modernize the
    2007
             identification and removal of aliens convicted of a crime, sentenced to
             imprisonment, and subject to removal.

   April
             ICE submits to Congress a strategic plan to leverage existing technology that shares
   2008
             law enforcement data among federal, State, and local law enforcement agencies.

  October
             Secure Communities is first implemented in Harris County, Texas.
   2008
   August
             ICE receives a media inquiry related to Philadelphia, Pennsylvania, asking whether
    2009
             a municipality can opt out of Secure Communities.
             The Secure Communities program office discusses whether participation is
             voluntary and whether Secure Communities is focusing on the most serious
             criminals sentenced to imprisonment and subject to removal.
             First participation definition – Secure Communities Frequently Asked Questions
             document explains that DHS does not require any entity to participate in
             information-sharing technology at the State or local level. The document further
             explains that MOAs between ICE and the States include a clause allowing either
             side to suspend the use of information-sharing technology with 30 days’ written
             notice. In these cases, ICE would still receive immigration status information on
             criminal aliens sentenced to imprisonment and subject to removal.

 November
             A decision memo is sent from the Secure Communities program office to the ICE
   2009
             Director in an attempt to clarify the agency’s position on voluntary participation.
             The ICE Director does not sign the memo.

   March
             Second participation definition – Public affairs guidance states that all jurisdictions
   2010
             are expected to be part of Secure Communities by 2013 to comply with a
             congressional mandate. It also states that if a jurisdiction does not want fingerprints
             checked against DHS’ database, it needs to coordinate with the State so that
             fingerprints are not submitted to the DOJ criminal history database. ICE does not
             specify the source of the mandate.



                  Communication Regarding Participation in Secure Communities

                                            Page 28
Appendix E
Timeline of Events and Communication Related to Secure Communities

   April
             Third participation definition – ICE Frequently Asked Questions document states
   2010
             that all jurisdictions are expected to be part of Secure Communities by 2013 to
             comply with a congressional mandate. A jurisdiction can choose not to receive
             immigration-related information on a fingerprinted individual, but that information
             will still be provided to ICE. ICE does not announce the source of the mandate in
             its outreach documents.

    July
             Fourth participation definition – ICE provides information to a congressman’s
    2010
             office explaining that participation in Secure Communities can be full, partial, or
             postponed until 2013.
             Representative Lofgren writes to Secretary Napolitano for clarification on whether
             participation in Secure Communities is voluntary.

   August
             Fifth participation definition – ICE issues Setting the Record Straight, which
    2010
             indicates that if a jurisdiction does not wish to activate on its scheduled date in the
             Secure Communities implementation plan, it must formally notify its State
             identification bureau and ICE in writing. ICE would request a meeting with federal
             partners, the jurisdiction, and the State to discuss any issues and come to a
             resolution, which could include adjusting the jurisdiction’s activation date or
             removing the jurisdiction from the implementation plan.

 September
             Sixth participation definition – Secretary Napolitano issues a response to
    2010
             Representative Lofgren explaining that a local law enforcement agency that does
             not wish to participate in Secure Communities must formally notify the Assistant
             Director for Secure Communities and the appropriate State identification bureau. If
             a local law enforcement agency is not activated, it will be that agency’s
             responsibility to contact a local ICE field office of suspected criminal aliens.

  October
             Seventh participation definition – The ICE Office of the Principal Legal Advisor
   2010
             prepares a draft legal analysis that supports a position that Secure Communities will
             be mandatory by 2013.

    June     The ICE Director issues two memos reiterating actions that can be taken to ensure
    2011
             that ICE immigration enforcement resources are focused on its enforcement
             priorities for detention and removal of criminal aliens. These memos note that ICE
             has prosecutorial discretion to decide whether to detain and initiate removal
             proceedings against an individual known to be the immediate victim or witness to a
             crime.

   August
             The ICE Director cancels MOAs, citing that they are not necessary to activate
    2011
             Secure Communities.




                  Communication Regarding Participation in Secure Communities

                                            Page 29
Appendix E
Timeline of Events and Communication Related to Secure Communities

 September
             The Homeland Security Advisory Council’s Task Force on Secure Communities,
    2011
             created in June 2011, issues its report on Secure Communities. The report
             recommends that ICE clarify the goals and objectives of Secure Communities and
             accurately relay this information to participating jurisdictions, future participating
             jurisdictions, and the communities they serve.

 November
             The ICE website explains that when State and local authorities arrest and book an
   2011
             individual into prison or jail, they routinely submit fingerprints to the FBI. The FBI
             then automatically shares these fingerprints with ICE to check against immigration
             databases.




                  Communication Regarding Participation in Secure Communities

                                            Page 30
Appendix F
Major Contributors to this Report

                    Patrick O’Malley, Director
                    Richard Johnson, Director
                    Christine Haynes, Audit Manager
                    Apostolos Exarchos, Auditor in Charge
                    Ralleisha Dean, Auditor
                    Callece Gresham, Program Analyst
                    John Kohler, Program Analyst
                    Kevin Donahue, Independent Referencer
                    Kelly Herberger, Communications Analyst




                 Communication Regarding Participation in Secure Communities

                                          Page 31
Appendix G
Report Distribution

                      Department of Homeland Security

                      Secretary
                      Deputy Secretary
                      Chief of Staff
                      Deputy Chief of Staff
                      General Counsel
                      Executive Secretariat
                      Director, GAO/OIG Liaison Office
                      Assistant Secretary for Office of Policy
                      Assistant Secretary for Office of Public Affairs
                      Assistant Secretary for Office of Legislative Affairs
                      Director, U.S. Immigration and Customs Enforcement
                      ICE Audit Liaison

                      Office of Management and Budget

                      Chief, Homeland Security Branch
                      DHS OIG Budget Examiner

                      Congress
                      Congressional Oversight and Appropriations Committees, as
                      appropriate




                 Communication Regarding Participation in Secure Communities


                                           Page 32

ADDITIONAL INFORMATION AND COPIES

To obtain additional copies of this report, please call the Office of Inspector General
(OIG) at (202)254-4100, fax your request to (202)254-4305, or e-mail your request to
our OIG Office of Public Affairs at DHS-OIG.OfficePublicAffairs@dhs.gov. For
additional information, visit our OIG website at www.oig.dhs.gov or follow us on Twitter
@dhsoig.

OIG HOTLINE

To report alleged fraud, waste, abuse or mismanagement, or any other kind of criminal
or noncriminal misconduct relative to Department of Homeland Security programs and
operations:

• Call our Hotline at 1-800-323-8603

• Fax the complaint directly to us at (202)254-4292

• E-mail us at DHSOIGHOTLINE@dhs.gov; or

• Write to us at:
        DHS Office of Inspector General/MAIL STOP 2600,
        Attention: Office of Investigation - Hotline,
        245 Murray Drive SW, Building 410
        Washington, DC 20528

The OIG seeks to protect the identity of each writer and caller.
